                       U.S. DEPARTMENT OF ENERGY
                      OFFICE OF INSPECTOR GENERAL




                 AUDIT OF WORK FORCE RESTRUCTURING AT

                    THE OAK RIDGE OPERATIONS OFFICE




The Office of Inspector General wants to make the distribution
of its reports as customer friendly and cost effective as
possible. Therefore, this report will be available
electronically through the Internet five to seven days after
publication at the following alternative addresses:


            Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

         Department of Energy Headquarters Anonymous FTP
                       vm1.hqadmin.doe.gov

  U.S. Department of Energy Human Resources and Administration
                            Home Page
               http://www.hr.doe.gov/refshelf.htm1

Your comments would be appreciated and can be provided on the
Customer Response Form attached to the report.




Report Number:     ER-B-95-06         Eastern Regional Audit Office
Date of Issue:     August 3, 1995     Oak Ridge, Tennessee 37830
                 AUDIT OF WORK FORCE RESTRUCTURING AT
                    THE OAK RIDGE OPERATIONS OFFICE



                           TABLE OF CONTENTS

                                                             Page

           SUMMARY......................................      1
PART I   D   APPROACH AND OVERVIEW........................    3

             Introduction.................................    3

             Scope and Methodology........................    3

             Background...................................    4

             Observations and Conclusions.................    6

PART II D    FINDINGS AND RECOMMENDATIONS.................    8

             1.   Intended Benefits Not Achieved..........    8

             2.   Grant Funds Used for Lobbying...........   15

PART III D MANAGEMENT AND AUDITOR COMMENTS..............     22


                                 #=1
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES


         REPORT ON AUDIT OF WORK FORCE RESTRUCTURING AT
                 THE OAK RIDGE OPERATIONS OFFICE

Audit Report Number:   ER-B-95-06                 August 3, 1995

                              SUMMARY

    Lockheed Martin Energy Systems, Inc., (Energy Systems)
operates the Oak Ridge National Laboratory, Y-12 Plant, and K-25
Site facilities in Oak Ridge, Tennessee, under a
cost-plus-award-fee contract administered by the Oak Ridge
Operations Office (Operations Office). The Operations Office
formally announced that Energy Systems would restructure its
work force to eliminate 865 positions in Fiscal Year (FY) 1993
and 1,400 positions in FY 1994. The audit objective was to
determine whether Energy Systems and the Operations Office
effectively achieved the objectives of the Department of
Energy's (Department) Defense Nuclear Facilities Work Force
Restructuring Plan in FYs 1993 and 1994.

    Energy Systems and the Operations Office achieved the
Department's restructuring objectives. The Department's
downsizing goals were achieved at Oak Ridge without resorting to
involuntary terminations. Voluntary separations and worker
transfers negated the need for layoffs and associated worker
assistance programs. Nevertheless, Energy Systems established
training programs and an outplacement center which, we found,
provided little benefit to displaced workers or the Oak Ridge
region. This condition occurred because the Department was not
adequately involved in preparing the restructuring plans and did
not curtail funding for training and outplacement programs when
expected layoffs did not materialize. As a result, the
Department unnecessarily spent about $8.2 million in FYs 1993
and 1994, and plans to spend an additional $15.6 million on
comparable projects through FY 1997.

    Federal law explicitly prohibits the use of appropriated
funds for lobbying Congress and Federal officials. However, we
found substantial lobbying activity under a grant the Operations
Office had awarded to an Oak Ridge advocacy group. In an
attempt to sponsor local support for the restructuring program,
the Department developed a grant statement of work that could be
construed as permitting lobbying. The Operations Office spent
$219,000 in FYs 1993 and 1994, and plans to spend an additional
$231,000 in FY 1995, much of which has been, or will be, used to
lobby elected officials and Federal agencies.

    Management nonconcurred with our findings and
recommendations. Management stated that expenditures for the
training programs and outplacement center were necessary and
reasonable to avoid involuntary layoffs.   Management agreed
that some of the grantee's activities may have been lobbying,
but did not agree that the grant should be discontinued or
restructured.



                                Office of Inspector General

                               PART I

                        APPROACH AND OVERVIEW


INTRODUCTION

    The Oak Ridge Operations Office (Operations Office)
announced plans to reduce the Lockheed Martin Energy Systems,
Inc., (Energy Systems) work force by 865 positions in Fiscal
Year (FY) 1993 and about 1,400 positions in FY 1994. The plans
were coordinated with area stakeholders and announced 120 days
in advance, in accordance with the requirements of the National
Defense Authorization Act of FY 1993. The purpose of the audit
was to evaluate the development and implementation of the
Operations Office's work force restructuring plans. The audit
objective was to determine whether Energy Systems and the
Operations Office effectively achieved the objectives of the
Department of Energy's Defense Nuclear Facilities Work Force
Restructuring Plan in FYs 1993 and 1994.


SCOPE AND METHODOLOGY

    The audit was performed from June 23, 1994, through
February 1, 1995, at the Department of Energy's (Department)
Office of Worker and Community Transition in Washington, D.C.,
and at Energy Systems and the Operations Office in Oak Ridge,
Tennessee. To achieve the audit objective, we relied
extensively on computer processed data in Energy Systems' cost
accounting and human resources information systems. We assessed
the reliability of this data including relevant general and
application controls and found them to be adequate. Based on
these assessments, we concluded that the data were sufficiently
reliable to be used in meeting the audit objective.

    To accomplish the audit objective, we:

    o Reviewed the requirements of Section 3161 of the National
Defense Authorization Act of FY 1993 and the Department's
implementing guidelines;

    o Evaluated the development and implementation of the
Operations Office's 1993 and 1994 work force
restructuring plans;

    o Analyzed restructuring costs incurred by Energy Systems
and the Operations Office in FYs 1993 and 1994;

    o   Interviewed Energy Systems and Department employees
involved in the development and implementation of the
restructuring plans; and

    o Evaluated the reasonableness of benefits provided to
affected workers and the Oak Ridge community under the
1993 and 1994 restructuring plans.

    The audit was performed in accordance with generally
accepted government auditing standards for performance audits,
and included tests of internal controls and compliance with laws
and regulations necessary to satisfy the audit objectives.
Accordingly, we assessed significant internal controls over work
force restructuring activities. The assessment included reviews
of Departmental policies, procedures, and responsibilities for
work force restructuring actions. Because our review was
limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed.

    An exit conference was held on July 24, 1995, with the Oak
Ridge Operations Office and Energy Systems management. In
addition, the audit results were discussed with the Director,
Office of Worker and Community Transition, on July 28, 1995.


BACKGROUND

    Section 3161 of the National Defense Authorization Act of
FY 1993 (Section 3161) requires the Department to develop a plan
for restructuring the work force for a defense nuclear facility
when significant layoffs are anticipated. Section 3161 also
requires the Department to deliver the plan to Congress within
90 days after the public announcement of the anticipated
layoffs.

    In accordance with Section 3161, the Operations Office
developed two work force restructuring plans. The first was
approved by the Secretary in August 1993, and contemplated a
reduction of 865 employees--765 at the Y-12 Plant and 100 at the
Oak Ridge National Laboratory--at a proposed cost of
$28.5 million through FY 1995. The second plan was submitted to
the Department's Task Force on Worker and Community Transition
for review in August 1994, and anticipated an additional
reduction of 1,483 employees in FY 1994--at all Energy System
components in Oak Ridge--at a proposed cost of $69.9 million.
As of February 1, 1995, the August 1994 plan had not yet been
approved.


    The Operations Office proposed the following benefits for
Energy Systems employees and the Oak Ridge community under the
1993 and 1994 restructuring plans:

                                         1993            1994
                                         Plan            Plan
                                        Amount          Amount
             Description                 (000)           (000)
  Pension Benefit Enhancements
    (1994 Only)                         $        0   $35,000

  Supplemental Employee Training            15,394     5,992

  Employee Retirement Incentives             8,359    26,624

  Severance Pay and Other
    Separation Benefits                      1,937       210

  Displaced Worker Health Benefits           2,061       210

  Local Community Impact Assistance            450       600

  Outplacement Assistance                      250     1,182

  Educational Assistance After Layoff
    (1994 Only)                                  0        97

  Relocation Assistance                         75        22

    Total                               $28,526      $69,937
                                        MMMMMMM      MMMMMMM


    The amount shown above for the 1993 plan was the amount
projected to be spent over 3 years (FYs 1993 through 1995) and
the amount shown for the 1994 plan was the amount projected to
be spent over 4 years (FYs 1994 through 1997), except for
pension benefit enhancements of $35 million. The pension
benefit enhancements amount is the actuarial estimate of the
cost of enhanced pension benefits to be paid over the lives of
those who took the special retirement incentives in 1994. The
pension plan had sufficient surplus funds to absorb the cost of
the enhanced pension benefits. Funding for the 1994 plan will
be provided partially from Section 3161 funds and partially from
other program funds.



    Layoffs proved unnecessary. Reductions were achieved
primarily through voluntary retirements and separations. In
addition, many employees transferred to other Energy Systems
components in Oak Ridge and others left through normal
attrition.


OBSERVATIONS AND CONCLUSIONS

    Energy Systems and the Operations Office are to be commended
for achieving the Department's primary restructuring objective.
With the passage of Section 3161, Congress attempted to ease the
negative impacts restructuring the defense nuclear complex had
on the lives of individual workers and local communities.
Accordingly, the primary objective of the Department's
restructuring program is to minimize layoffs when possible
through retraining, early retirement, attrition, and other
options. Energy Systems and the Operations Office effectively
achieved the Department's downsizing goals at Oak Ridge without
resorting to any layoffs. The restructuring was accomplished
entirely through voluntary retirements and separations, normal
attrition, and employee transfers.

    While acknowledging the Department's accomplishments, we
believe the Department could have more economically achieved the
restructuring goals of Section 3161 at the Oak Ridge complex.
Even though expected layoffs were avoided, Energy Systems
initiated a Manufacturing Skills Campus, a High-Voltage
Electrical Training Program, and an Administrative Technology
Institute, and also created an outplacement center--none of
which significantly benefited displaced workers or the Oak Ridge
region. This condition occurred because the Department was not
adequately involved in preparing the restructuring plans and did
not curtail funding when expected layoffs did not materialize.
As a result, the Department unnecessarily spent about
$8.2 million in FYs 1993 and 1994, and planned to spend an
additional $15.6 million on similar projects through FY 1997.
(See Part II, Finding 1.)

    Also, we found appropriated funds were used for lobbying
activities--which is prohibited by Federal law. The Operations
Office spent about $219,000 in FYs 1993 and 1994, and plans to
spend an additional $231,000 in FY 1995 under a grant made to an
Oak Ridge advocacy group whose primary mission is to influence
elected officials and Federal agencies for the Oak Ridge
community. Grant funds were partially used to lobby Federal and
State officials. We believe the grant's statement of work and
reimbursement provisions need to be modified to explicitly
prohibit any funding of lobbying activities. (See Part II,
Finding 2.)

    We believe the efforts to reduce the burden of the
Department's restructuring on longtime, loyal contractor
employees and to minimize the economic impact on communities in
and around the Department's facilities are laudable. We
recognize, as well, that Department and contractor officials,
working with community leaders, employee representatives, and
other stakeholders, have made extraordinary efforts to make this
program work. We are concerned, however, that should the
program be viewed by those outside the Department as being
managed imprudently or beyond the parameters established in the
enabling legislation, continuation of such programs at Oak Ridge
and at other facilities could be jeopardized. For this reason,
we are hopeful that the Department views the results of our
audit with care, despite the disagreement that has been
expressed to date with many of our conclusions.

    In our opinion, the findings in this report disclosed
significant internal control weaknesses that the Department
should consider when preparing the yearend assurance memorandum
on internal controls.

                             PART II
                   FINDINGS AND RECOMMENDATIONS

1.   Intended Benefits Not Achieved

      Section 3161 was intended to benefit individual workers
who were displaced because of downsizing, and also to offset the
adverse economic impact that downsizing would have on local
communities. The training programs and the outplacement center
established by Energy Systems using Section 3161 funds did not
significantly benefit displaced workers or the Oak Ridge region,
other than Energy Systems. This condition occurred because the
Department was not adequately involved in preparing the
restructuring plans and did not curtail funding when expected
layoffs did not materialize. As a result, the Department
unnecessarily spent about $8.2 million in FYs 1993 and 1994, and
planned to spend an additional $15.6 million on similar projects
through FY 1997.


RECOMMENDATIONS

      We recommend that the Manager, Oak Ridge Operations
Office:

      1.    Curtail funding for programs such as the
Manufacturing Skills Campus that do not
significantly help the intended beneficiaries of
Section 3161--displaced workers and the local
community;

      2.    Develop procedures to ensure that work force
restructuring plans are developed by Operations
Office employees consistent with Department-wide
objectives; and

      3.    Monitor the implementation of work force
restructuring plans to preclude unnecessary
expenditures for programs that do not help displaced
workers or the Oak Ridge community.


MANAGEMENT REACTION

      The Chief Financial Officer, Oak Ridge Operations Office,
nonconcurred with the finding and recommendations. Management
stated that the restructuring programs helped the intended
beneficiaries, and program costs were necessary and reasonable.
Management stated that it curtailed funding for the programs
when their activities no longer helped intended beneficiaries.


                         DETAILS OF FINDING


INTENT OF SECTION 3161

       Section 3161 required the Department to establish a
Defense Nuclear Facilities Work Force Restructuring Plan to
mitigate the impact of work force restructuring on displaced
workers and affected communities. Section 3161 was intended to
benefit individual workers who were displaced or separated
(voluntarily or involuntarily) because of downsizing the nuclear
facilities complex, and also to offset the adverse economic
impact downsizing would have on local communities.


ACTUAL ACCOMPLISHMENTS

      Energy Systems and the Operations Office achieved the
Department's downsizing goals through voluntary retirements,
transfers, and attrition. With respect to avoiding layoffs, the
Department's accomplishments were fully successful. With
respect to retraining, outplacement, and local economic
development, however, the Department's accomplishments were
limited. Three training programs and the outplacement center
established by Energy Systems using Section 3161 funds did not
significantly benefit displaced workers or the Oak Ridge region.
Rather, the training programs merely upgraded skills of
machinists, electricians, and secretaries in their current or
related jobs, but did not prepare workers for new jobs. The
outplacement center provided job-search assistance to all
employees, but found jobs outside of Energy Systems for only
10 employees, 3 of whom had been displaced by the restructuring.


Training Program Benefits

      Energy Systems established three training programs to
enhance skills of employees in their current jobs:

      o The Manufacturing Skills Campus to upgrade machinist
skills for Energy Systems employees and employees of
other firms in the region.


      o The High-Voltage Electrical Training Program to update
skills of in-house electricians.

      o The Administrative Technology Institute to upgrade the
skills of clerical workers in grammar, business math,
and computer applications.

      Each of these programs is discussed in more detail below.


      Manufacturing Skills Campus

      The Manufacturing Skills Campus was not intended to
prepare displaced employees for new jobs or occupations.
Instead, the Campus had two missions--to upgrade the skills of
Energy Systems' craft workers and to transfer manufacturing
skills from the Department to the private sector. The 1993
restructuring plan states the "Campus is both a worker
retraining and community economic development initiative...to:
transfer defense manufacturing technologies to private industry,
use highly skilled electrical and machining personnel, use
existing idle machining equipment, retrain the retained work
force to prepare for new missions and program changes, and
retain the manufacturing skills based in the Oak Ridge region."
We believe the creation and operation of the Campus represents a
significant expansion of Energy Systems into the field of
education, which has traditionally been vested in local
institutions.

      Energy Systems used external and internal information to
develop a curriculum for the Campus. Energy Systems solicited
information on training needs in machining and environmental
restoration from firms in Tennessee and neighboring states.
Energy Systems also solicited information from firms within 150
miles of Oak Ridge to identify open positions. The results of
both solicitations, combined with an analysis of internal
training needs, were used to develop and provide courses in
machine maintenance and operation, electronics, and quality
inspection. Energy Systems had developed and conducted 18
courses as of July 1994. The campus trained 1,060 students in
FY 1994, of which 83 percent were Energy Systems employees, and
the remainder from private industry or students referred from
local vocational schools.




      We believe the Campus does not satisfy a primary goal of
Section 3161, which is to retrain displaced workers. Moreover,
as discussed below, we believe the Campus, rather than providing
local impact assistance, only broadened Energy Systems'
operations into training and education.

      The Campus is the creation of Energy Systems. Located at
the Y-12 Plant site, the Campus is managed and staffed by Energy
Systems personnel. The courses were developed and conducted by
Energy Systems' machinists and workers.

      The audit showed that it was unclear that a careful study
of the relationship between the Campus and local existing
educational institutions had been made. There was some concern,
to be specific, that the Campus could take business away from
local educational institutions. A few courses overlapped or
duplicated courses offered by a local community college. For
example, Energy Systems developed a 40-hour introductory course
on computer numerical control machine operation that duplicated
a computer-aided machining course offered by the local community
college.

      Management stated that most of the courses offered by the
skills campus were not available at local educational
institutions, and that the local institutions welcomed the
skills campus as providing more advanced studies for their own
students.
      High-Voltage Electrical Training

      Energy Systems spent about $400,000 to develop and conduct
high-voltage electrical training courses through FY 1994. As
with the Skills Campus, Energy Systems' high-voltage training
program did not meet the retraining goals of Section 3161. In
fact, the high-voltage program was never intended to benefit
displaced workers or provide local community assistance.
Instead, the program was designed to enhance skills for work on
high-voltage electrical systems and provide refresher training
for general electricians.

      A total of 104 electricians took one or more high voltage
courses. Energy Systems advised us the courses were needed to
backfill high voltage electricians lost during the 1993
voluntary reduction-in-force. However, we found only 39
electricians had left the plant, 28 of whom had transferred to
other Energy Systems' components in Oak Ridge.



      These statistics do not, in our opinion, support the
contention that this program benefited displaced workers. Nor
could we locate any documentation to confirm that the program
was of benefit to the local economy. On this basis, we
concluded that the use of Section 3161 funds for this purpose
was questionable.

      Administrative Technology Institute

      Similar to the other training programs, the Administrative
Technology Institute also did not meet the intent of Section
3161. Rather than preparing workers for new jobs, this program
upgraded skills of administrative personnel in grammar, business
math, and computer applications. All courses were developed and
taught by a local community college under a fixed-price
contract. A total of 61 administrative workers were enrolled in
the program during our audit. We found that no administrative
workers participated in Energy Systems' voluntary reductions.

      While we support the concept of self-improvement and
employer-provided assistance for administrative workers, our
analysis led us to conclude that Section 3161, as it was
conceived, was not the proper vehicle for providing these kinds
of enhanced job skills training exercises.


Re-employment Assistance

      Energy Systems created an employee career center to
provide job-search and counseling services for workers affected
by the downsizing. However, instead of providing assistance to
employees who were displaced by the restructuring, Energy
Systems provided job-search assistance to employees who were not
displaced.
      Energy Systems spent $840,738 in work force restructuring
funds in FYs 1993 and 1994 to establish and operate an employee
career center. The center was opened in April 1993 "to assist
impacted workers in their job-search efforts during the 1993
downsizing." By August 1993, the center was staffed with four
recruiters, two job-lead developers, six administrative support
employees, an editor, a job derivative classifier, and a
manager. The center remained open with a reduced staff
immediately following the 1993 downsizing, and then expanded to
19 employees in April 1994. Work force restructuring funds paid
for approximately one-half the cost of staffing the career
center, and other program funds were used to pay the remainder.



      Career center services included the preparation of resumes
and cover letters, job-skill assessments, educational and
job-search counseling, job fairs, and computer library
resources. The career center prepared 1,028 resumes and held 38
outplacement workshops in FY 1993. The center's activities
resulted in 18 job offers to Energy Systems employees, of which
10 were accepted. However, only 3 of the 10 employees who
accepted the new jobs were displaced by the work force
restructuring plan.

       Management stated that the career center expenditures were
justified, even though there were no layoffs, because the center
was used to reassign employees internally and perform job
searches for employees taking early retirement. These
activities, in our judgment, were precisely the activities that
would normally be provided by Energy Systems' existing personnel
division, without additional expenditures for a career center.
As a consequence, the "value added" of the program for
re-employment assistance was problematic. The concept of an
active re-employment assistance program in a time when employees
are being displaced is a well accepted practice in the private
and public sectors. However, it is important, in our view, to
evaluate the success of such programs, to ensure that they are
as effective in operation as they are attractive on the drawing
board.


INADEQUATE DEPARTMENTAL INVOLVEMENT

      These conditions occurred because the Department was not
adequately involved in preparing restructuring plans for the Oak
Ridge complex and did not adequately curtail funding when
expected layoffs did not materialize.

      Energy Systems developed the 1993 restructuring plan in
accordance with preliminary draft guidance provided to the
Operations Office by Headquarters in March 1993. The
preliminary guidance was revised in March 1994, placing
responsibility for plan development directly on the operations
offices. The operations offices were advised to seek assistance
from contractors, but the plans were to be the Department's
products. However, even after the guidelines were revised, the
Operations Office did not follow the guidelines and relied on
Energy Systems to draft the 1994 plan, which was submitted to
the Task Force on Worker and Community Transition in August
1994.



      Regardless of who prepared the plans, the responsible
Department officials should have continually evaluated its
impact, and we believe that such management would have disclosed
that some of the proposed projects were inconsistent with
Departmental objectives. The Operations Office and the Task
Force should have determined that retraining to enhance the
skills of electricians and secretaries, as well intentioned as
such activities may be, was outside the intent of Section 3161.
Similarly, since Energy Systems achieved the Department's
downsizing requirements without any involuntary terminations by
using voluntary reduction-in-force incentives, the Department
could have reduced spending for retraining and reemployment
assistance.


UNNECESSARY EXPENDITURE

      The Department spent about $8.2 million and plans to spend
an additional $15.6 million on work force restructuring projects
which were and are highly questionable. Energy Systems spent
Section 3161 funds totaling $7.4 million in FYs 1993 and 1994 to
develop and operate the Manufacturing Skills Campus, the
High-Voltage Electrical Training Program, and the Administrative
Technology Institute. Also, Energy Systems spent Section 3161
funds totaling $.8 million in FYs 1993 and 1994 to develop and
operate the employee career center. Energy Systems plans to
spend $5 million on similar retraining projects and $.6 million
on the career center in FYs 1995, 1996, and 1997. In addition,
Energy Systems plans to spend $10 million on the Manufacturing
Skills Campus in FYs 1995, 1996, and 1997.

2.   Grant Funds Used for Lobbying


FINDING

      Federal law prohibits the use of Government funds for
lobbying elected officials or Federal agencies. However, the
Department awarded a grant to a nonprofit advocacy group in Oak
Ridge, Tennessee, whose primary function was to influence
elected officials and Federal agencies to bring new business and
funds into the Oak Ridge community. The Department made the
grant based on its interpretation of Congress' mandate to
provide local impact assistance to communities affected by work
force restructuring. As a result, the Department spent $219,000
in Federal funds, and plans to spend an additional $231,000,
much of which will be used to lobby elected officials and
Federal agencies.
RECOMMENDATION

      We recommend that the Manager, Oak Ridge Operations
Office, direct the contracting officer to allow the grant to
expire on September 30, 1995, and include a clear statement of
work and appropriate reimbursement provisions in any follow-on
grant to ensure that no Federal funds are used for lobbying
activities.


MANAGEMENT REACTION

       The Chief Financial Officer, Oak Ridge Operations Office,
nonconcurred with the finding and recommendation. Management
stated that the statement of work does not permit or contemplate
lobbying. The Department performed a 100-percent review of the
Council's activities and determined that a portion of the
Council's activities were potentially lobbying. The Department
will seek repayment for costs related to questionable
activities. In addition, the Department will issue additional
guidance and direction to the Council to clarify the lobbying
issue.


                       DETAILS OF FINDING


FEDERAL RESTRICTIONS ON LOBBYING ACTIVITIES

      Federal law prohibits the use of Government funds for
lobbying. Section 3152, title 31, U.S. Code states that no
appropriated funds may be expended by the recipient of a Federal
grant "... to pay any person for influencing or attempting to
influence an officer or employee of any agency, a Member of
Congress, an officer or employee of Congress, or an employee of
a Member of Congress in connection with ... the awarding of any
Federal contract, the making of any Federal grant, the making of
any Federal loan, the entering into of any cooperative
agreement, and the extension, continuation, renewal, amendment,
or modification of any Federal contract, grant, loan, or
cooperative agreement...."


GRANT TO EAST TENNESSEE ECONOMIC COUNCIL

      The Department awarded a grant to the East Tennessee
Economic Council (the Council), formerly the Roane-Anderson
Economic Council, to assist the Operations Office in developing
the work force restructuring plan. The grant was for $150,000
and covered the period May 21, 1993, through September 30, 1994.
The Department modified the grant in April 1994, extending the
period of performance through September 30, 1995, at an
additional cost of $300,000.

      The Council, a division of the Oak Ridge Chamber of
Commerce, is a non-profit organization of about 75 businesses
and individuals. Before the Department's grant, the Council
received most of its operating funds from member contributions.
Corporate members paid an annual fee of $500 and individual
members paid an annual fee of $100. The Council also received
contributions from a few Oak Ridge firms, including Energy
Systems.

      The Council's formal mission, action agenda, and actual
activities confirm that influencing elected officials and other
related lobbying were part of the Council's charter since
inception.


Council Mission and Action Agenda

      The Council's stated mission is to ensure that the
Government's presence remains a strong, growing, and viable part
of the regional economy and to stimulate private sector economic
growth in East Tennessee. The Council's action agendas for
Calendar Years (CY) 1993 and 1994 stated "The Council functions
to represent the interests of our members through the
legislative process with elected officials and Federal
Agencies." The Council's CY 1994 action agenda included the
following specific projects:

      1.    Attract sufficient investment from the private
sector and Federal agencies to preserve the Oak
Ridge Centers for Manufacturing Technology. Base
funding is required from the Department of Energy
for FY 1995 and the next several years in order to
help.

      2.    Ensure that construction line-item funding of
$40 million remains in the FY 1995 budget for the
Advanced Neutron Source facility in Oak Ridge.
Total construction funding over a 9-year period will
require about $1.9 billion and will employ several
hundred people during construction and operation.

      3.    Ensure that the Department of Energy continues full
funding of the Oak Ridge Centers for Environmental
Technology and Waste Management and seek national
designation for both centers. Also, encourage the
Secretary of Energy to formally designate Oak Ridge
as the site of the proposed National Environmental
Management Academy.

      4.    Seek formal designation for the Oak Ridge
Transportation Technology Center, and seek
additional funding to expand transportation
technology efforts.

      5.    Promote the appropriation of about $100 million to
consolidate biological research in a
state-of-the-art facility at the Oak Ridge National
Laboratory. About 70 percent of this funding will
be for new research equipment.
      6.    Secure funding commitments from the Department of
Energy from existing FY 1994 funds and seek
additional funding in FYs 1995 and 1996 for East

Tennessee 2000 projects. Additional funding for
certain projects must come from the Economic
Development Administration.

      7.    Encourage members of the Tennessee Congressional
Delegation to be aware of the economic impact of
international trade policies on Tennessee businesses
and the economic contributions of these businesses
to the region and State.

      8.    Ensure that Federally-elected representatives from
Tennessee are aware of the Oak Ridge National
Laboratory's Work For Others Program and the
Tennessee Valley Authority's Technology Partnering
Program and the economic importance of these
programs to the region.

      9.    Support the Tennessee Proposal for a National
Information Infrastructure pilot demonstration
grant. Use the Technology 2020 project as a major
example of Tennessee's commitment to the National
Information Infrastructure.

     10.    Make the Tennessee Congressional Delegation aware of
the economic benefit of the National Aeronautics and
Space Administration Space Station to Tennessee and
its importance to the scientific community. For the
most part, the Tennessee Congressional Delegation
has been opposed to this project because of the
large proposed budget.

     11.    Ensure that East Tennessee regional companies have
fair access to funds available from the Department
of Commerce for advanced manufacturing technology
projects.

      Based on the Council's agenda described above, including
its stated attempts to influence the appropriation process, the
mission of the Council was oriented toward obtaining Federal
funds for selected Oak Ridge projects and facilities through its
activities within the Congress and Federal agencies.


Council Lobbying Activities

      Council activity reports show that lobbying of Congress
and Federal agencies actually occurred. Summaries of the
Council's work force restructuring activities from May 1993
through July 1994 revealed that the Council's President and
Executive Director held many meetings with elected officials and
Federal agencies to lobby for new business and funds for the Oak
Ridge community. These meetings involved Members of Congress,
employees of Members of Congress, high-ranking Federal
officials, State legislators, and the State Public Service
Commissioner and his staff. Several examples are summarized
below.

       1.   The Council's Executive Director accompanied the
Senior Vice President of an Oak Ridge firm on a trip
to Washington, D.C., to visit a U.S. Senator. The
Oak Ridge firm had a Government contract to revamp
computer systems, and was seeking a similar contract
with the Internal Revenue Service. The Council
assisted the firm in its attempts to obtain the new
contract in order to bring 300 new jobs to Oak
Ridge.

       2.   The Council's President and Executive Director
traveled to Washington, D.C., to brief the Tennessee
Congressional Delegation on the Council's activities
and to "lay the ground work for their assistance in
helping identify sources of funds in other agencies
that can be utilized in the Workforce Restructuring
Plan."

      3.    The Council cohosted a luncheon for the Chairman of
a Senate Committee, the Lieutenant Governor of the
State of Tennessee, and the Oak Ridge Operations
Office Manager at the Oak Ridge Chamber of Commerce.
The Council President gave a presentation on the
Technology 2020 Resource Center during the luncheon.

      4.     The Council arranged for regional stakeholders to
travel to Washington, D.C., to meet with Members of
Congress and the Chairman of the Department's Task
Force on Worker and Community Transition regarding
funds for a proposed project. The Council's
activity report stated "Many stakeholders remain
puzzled and angry that the stakeholder-driven
proposal has not been funded." The Council members
and stakeholders met with Members of Congress, and
were accompanied by Congressional employees in their
subsequent meeting with the Task Force Chairman.
The requested funds were subsequently provided for
the project.

       5.   A Council member traveled to Nashville, Tennessee,
and met with the Public Service Commissioner and his
staff to seek Public Service Commission funding for
construction of the Technology 2020 project in Oak
Ridge.


INTERPRETATION OF CONGRESSIONAL INTENT

      Section 3161 required the Department to provide local
impact assistance to communities that were affected by
restructuring. Section 3161 also required the Department to
coordinate the provisions of its local impact assistance with
programs carried out by the Departments of Labor and Commerce.
Congress did not define local impact assistance and did not
specify provisions that should be included in the Department's
impact assistance programs.

      The Department interpreted "local impact assistance"
broadly and designed a grant statement of work that had few
limitations. Under grant terms, the council was to (1) serve as
a liaison between regional stakeholders and Energy Systems and
the Department to develop local impact assistance plans and
programs; (2) serve as the lead coordinator for regional
stakeholders with local, State, and Federal agencies;
(3) analyze job opportunities in the region for displaced
workers, identify and apply for Government assistance programs,
and coordinate to ensure timely delivery of available services;
(4) identify the need for longer-term initiatives which can help
diversify and strengthen the local economy; (5) create new job
opportunities by attracting new companies to the region, helping
existing companies expand, and starting new technology-oriented
companies; and (6) help integrate regional efforts with future
Department plans and policies to ensure close public-private
sector cooperation toward regional goals and objectives.

      The local impact assistance provisions of Section 3161
were not intended to provide Federal funds for lobbying elected
officials or Federal agencies for local projects. The
underlying purpose of Section 3161 was to mitigate the impact of
the Department's work force restructuring on displaced employees
and affected communities. Section 3161 stated that the
Secretary of Energy would consult with the Secretary of Labor,
appropriate representatives of departments and agencies of State
and local governments, and appropriate representatives of
community groups in communities affected by the restructuring
plan to develop local impact assistance plans. Also, Section
3161 encouraged community involvement in developing initiatives
that would offset the impacts of downsizing.

      Moreover, Department regulations require grant recipients
to certify that no funds will be used by the recipient to lobby
elected officials or Federal agencies. The Council President
certified to that effect in May 1993.


COST OF LOBBYING

      Under the Department's grant to the Council, the
Department spent $219,000 in FYs 1993 and 1994, and plans to
spend an additional $231,000 in FY 1995. Based on the data
presented in its own agenda and activity reports to the
Department, most of these funds were used for lobbying elected
officials and Federal agencies on behalf of the Oak Ridge
Chamber of Commerce.

      The grant provided reimbursement for 75 percent of the
compensation paid to the Council's Executive Director and
50 percent of the compensation paid to the Council's President,
who was also President of the Oak Ridge Chamber of Commerce.
Additionally, the grant provided reimbursement of travel
expenses for the Executive Director, President, and other
Council employees who assisted the Department in planning the
work force restructuring. Furthermore, the grant provided
reimbursement for materials, supplies, equipment, and
consultants employed by the Council in planning for the work
force restructuring.

      We could not determine, with certainty, the portion of
time or money spent by the Council in lobbying activities.
Also, we could not determine the portion of time spent by the
Council in lobbying activities that were actually reimbursed by
the Department. Nevertheless, many of the activities of the
Council suited the commonly understood definition of lobbying.
Therefore, in our opinion, the Department should allow the grant
to expire on September 30, 1995, and include a clear statement
of work and appropriate reimbursement provisions in any
follow-on grant to ensure that no funds are used for lobbying
activities.

                            PART III

                 MANAGEMENT AND AUDITOR COMMENTS



      The Chief Financial Officer, Oak Ridge Operations Office,
nonconcurred with our findings and recommendations. Management
stated that expenditures for the training programs and
outplacement center were necessary and reasonable to avoid
involuntary layoffs. The comprehensive planning and cooperative
efforts by the Department, contractors, and employee
representatives directly contributed to the success of the
restructuring program. Funding for most of the programs was
curtailed when the programs no longer helped intended
beneficiaries. With respect to lobbying, management stated that
some of the grantee's activities might have been lobbying, but
did not agree to let the grant expire or to clarify the grant's
statement of work and reimbursement provisions. Instead,
management will direct the grantee to avoid certain questionable
activities and seek recovery from the grantee for previous
questionable activities.   Management's comments on the
recommendations and our responses follow.


Finding 1 D Management Control

      Recommendation 1. We recommend that the Manager, Oak
Ridge Operations Office, curtail funding for programs such as
the Manufacturing Skills Campus that do not significantly help
the intended beneficiaries of Section 3161--displaced workers
and the local community.

      Management Comments. Management nonconcurred, stating
that the training and career center programs helped displaced
workers and the local community. Management stated that the
audit report uses the term "displaced workers" to mean only
workers who are involuntarily laid off, and does not consider
workers who are reassigned or voluntarily separate or retire.
Management's explanation for each of the programs discussed in
the report are summarized below.

      Manufacturing Skills Campus: Management contended the
Campus helped mitigate the impact of the restructuring for
displaced workers and the local community by (1) avoiding
layoffs of machinists, maintenance craft workers, and
technical support workers by employing them as instructors
at the Campus, and (2) improving worker skills in the
private sector through courses provided by the Campus.
Management also advised it is considering a proposal to
expand the role of the Campus to train workers affected by
the restructuring of other Departmental facilities during
the next 2 years. Department management at the highest
levels have supported funding for the skills campus from
its inception.

      High-Voltage Electrical Training: Management contended
that this program assisted displaced electrical workers
and enhanced the competency of all electrical workers.
Without the program, three Energy Systems electricians
would have been separated. Although management did not
agree with the finding, Section 3161 funding was
discontinued for the program during the audit.

      Administrative Technology Institute: Management contended
that the Institute helped clerical employees who were
vulnerable to displacement and upgraded clerical workers'
skills, thereby increasing their flexibility to
effectively perform work within Energy Systems. Although
management did not agree with the finding, the program was
discontinued during the audit.

      Employee Career Center: Management contended that the
Employee Career Center helped avoid employee separations
and was used to reassign employees affected by the
restructuring to other Energy Systems components in Oak
Ridge that were not affected. Internal placement was the
Employee Career Center's first priority. Management
credits reassignments within Energy Systems as minimizing
disruption and saving many jobs.

       Auditor Comments. Although management disagreed with the
finding, the Department curtailed spending for High-Voltage
Electrical Training, the Administrative Technology Institute,
and the Employee Career Center during the audit. Management, in
denying that the audit findings were responsible for this
action, stated that spending was curtailed because the programs
no longer benefited displaced workers.

      The Department should take parallel actions with regard to
the Manufacturing Skills Campus. Although the Campus provides
teaching jobs for several Energy Systems employees, program
costs appear to be out of proportion to the reported benefits to
displaced workers and the local community. The Campus' proposal
to train workers affected by restructuring at other Departmental
sites could result in yet another costly expansion of the
Department's mission in Oak Ridge. It seems reasonable that the
affected workers at other locations could attend similar courses
at local training facilities without incurring large travel and
per diem costs. We believe that any proposal to expand
activities at the Skills Campus should be subject to scrutiny
and analysis by the Department to ensure that the benefits
exceed the costs.

      We also disagree with management's statement that the term
"displaced workers" as used in this report means only workers
who are involuntarily laid off. The term also applies to
workers who are reassigned or who voluntarily separate or
retire due to the restructuring. The training programs were
beneficial to the extent they provided teaching positions for
Energy Systems employees. Also, the career center was
beneficial to the extent it was used to reassign employees
internally. However, we believe spending for these programs
exceeded the benefits achieved for displaced workers and the
local community.

      Recommendation 2. We recommend that the Manager, Oak
Ridge Operations Office, develop procedures to ensure that work
force restructuring plans are developed by Operations Office
employees consistent with Department-wide objectives.

      Management Comments. Management nonconcurred, stating
that the Operations Office actively managed the restructuring.
Departmental guidelines recognize that contractors are the
principal source of knowledge and information on many
restructuring issues and allow field activities to seek
contractors' assistance in developing plans. Although Energy
Systems was involved, the Department made the policy decisions
regarding plan development. The Operations Office will ensure
that future plans are developed consistent with Departmental
guidelines; however, no local procedures are necessary.

      Auditor Comments. We believe the Department would not
have created the programs discussed in this report if the
Department had developed the plan based on information it
gathered from all local stakeholders instead of proposals
prepared by Energy Systems. The Operations Office should
develop procedures to ensure that future restructuring programs
are developed by the Department in full consideration of all
stakeholders' needs.

      Recommendation 3. We recommend that the Manager, Oak
Ridge Operations Office, monitor the implementation of work
force restructuring plans to preclude unnecessary expenditures
for programs that do not help displaced workers or the Oak Ridge
community.

      Management Comments. Management nonconcurred, stating
that the Operations Office had actively monitored the
implementation of the restructuring plans, and unnecessary
expenditures did not result as discussed in response to
recommendation 1.
      Auditor Comments. Management did curtail Section 3161
spending for several restructuring programs during our audit.
However, we believe the Department could have avoided a
significant portion of earlier spending for these programs if
the Operations Office had monitored the programs more closely.


Finding 2 D Grant Funds Used for Lobbying

      Recommendation. We recommend that the Manager, Oak Ridge
Operations Office, direct the contracting officer to allow the
grant to expire on September 30, 1995, and include a clear
statement of work and appropriate reimbursement provisions in
any follow-on grant to ensure that no Federal funds are used for
lobbying activities.

      Management Comments. Management disagreed with the
finding and recommendation. Management stated that the grant's
statement of work did not permit or contemplate lobbying.
However, management concluded that the statement of work did
"leave the door open for potential lobbying to occur."
Therefore, management will issue guidance to the grantee to
clarify the issue.

      Management performed a 100-percent review of the Council's
activities and identified instances of potential lobbying.
Management's comments regarding specific examples in the report
(pages 17 and 18) follow:

      o Management stated that the first example may have been
lobbying. However, the trip may not have constituted
lobbying by the Council, since the Council did not have
a financial interest in the award and did not discuss
any award or solicitation affecting the Council.
Nevertheless, management questioned $253 of incidental
expenses and $250 of the Executive Director's salary.

      o Management did not believe the second example was
lobbying because the trip was requested by the
Tennessee Congressional Delegation. In addition, the
mere discussion with legislative personnel regarding
future funding sources does not constitute lobbying
activities. Federal regulations state that the
prohibition against lobbying does not apply if the
activities are not directly related to a covered
Federal action. Since the Council did not discuss any
specific Federal proposals, the discussion could not be
directly related to any one specific covered Federal
action.

      o Management determined that the third example may have
been lobbying. Although the luncheon presentation was
requested by legislative officials, the formal
application for a grant on Technology 2020 was in
Departmental Headquarters for review and approval, and
the Council may have used this meeting to influence the
Department's approval of the grant application.
Management will question 4 hours of Council members'
salaries.

      o Management did not agree that the fourth example was
lobbying. The meeting was requested by the Department,
and Federal regulations state that the providing of
information specifically requested by an agency is
allowable at any time. However, management did
question the prudence of the meeting with the Tennessee
Congressional Delegation and obtaining their support
for the meeting with the Department. The grantee will
be cautioned that if this occurs again, the costs will
be questioned.

      o Management did not agree that the fifth example was
lobbying because the visit was made to influence State
rather than Federal legislators. Management stated
that Federal lobbying regulations only apply to
lobbying activities related to Federal legislators or
Federal agencies, and not to State activities.

      Auditor Comments. We believe the corrective action
proposed by management will not prevent the Department's funding
of lobbying activities. The Department will continue to fund
lobbying activities as long as it funds portions of Council
members' salaries because lobbying is the primary function of
the Council.

      The Department should not have awarded the grant to the
Council. A basic principle of appropriations law is that a
Government agency should not do indirectly what it is prohibited
from doing directly. Thus, since the Department is prohibited
from spending appropriated funds to lobby elected officials for
its programs or activities, it should not circumvent this
restriction by passing funds for lobbying through a grantee.
Therefore, the Department should either let its grant with the
Council expire on September 30, 1995, or revise the terms of the
grant to ensure that employees involved in local impact
assistance planning are not also involved in lobbying for the
Department's programs and plans.

      We also disagree with management's response to the second,
fourth, and fifth examples of lobbying activities in the report.
With respect to the second example, we believe that the
Council's attempts to obtain assistance in identifying fund
sources applies to all Federal action items on its agenda.
Thus, discussions regarding the Council's entire agenda are
subject to prohibition against lobbying activities directly
related to a Federal action. We do not believe the prohibition
should be limited to discussions of "one specific covered
Federal action."

      With respect to the fourth example, we agree that the Task
Force Chairman requested the meeting with the Council, but he
did not request the Council to bring Congressional employees and
angry stakeholders to the meeting to influence his decision to
approve or disapprove the Council's proposal. We believe the
Council's attempt to obtain Congressional influence in the
Department's decision-making process was lobbying by any
definition of the term.

      With respect to the fifth example, we agree that the
Federal prohibition against lobbying does not address lobbying
of State officials.   Even though the law is silent in this
regard, we believe Federal funds should not be used to lobby
State officials for the same reasons it should not be used to
lobby Federal officials.

                                           IG Report No.   ER-B-95-06


                         CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our
reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us.
On the back of this form, you may suggest improvements to enhance
the effectiveness of future reports. Please include answers to
the following questions if they are applicable to you:

     1.   What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection
would have been helpful to the reader in understanding this
report?

     2.   What additional information related to findings and
recommendations could have been included in this report to
assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have
made this report's overall message more clear to the reader?

     4.   What additional actions could the Office of Inspector General
have taken on the issues discussed in this report which would
have been helpful?

     Please include your name and telephone number so that we may
contact you should we have any questions about your comments.

     Name                               Date

     Telephone                          Organization

     When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586D0948, or you may mail it
to:

                    Office of Inspector General (IG-1)
                    Department of Energy
                    Washington, D.C. 20585
                    ATTN: Customer Relations
     If you wish to discuss this report or your comments with a staff
member of the Office of Inspector General, please contact
Wilma Slaughter (202) 586D1924.
